<html>
<title> - FULL COMMITTEE HEARING ON MAINTAINING PUBLIC LANDS FOR HUNTING, FISHING, RANCHING AND SMALL BUSINESSES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                       FULL COMMITTEE HEARING ON

                      MAINTAINING PUBLIC LANDS FOR

                       HUNTING, FISHING, RANCHING

                          AND SMALL BUSINESSES

=======================================================================


                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2008

                               __________

                          Serial Number 110-85

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                   HOUSE COMMITTEE ON SMALL BUSINESS


                     U.S. GOVERNMENT PRINTING OFFICE

40-858 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLIE GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DAVID DAVIS, Tennessee
YVETTE CLARKE, New York              MARY FALLIN, Oklahoma
BRAD ELLSWORTH, Indiana              VERN BUCHANAN, Florida
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania
BRIAN HIGGINS, New York
MAZIE HIRONO, Hawaii

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

                    Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               VERN BUCHANAN, Florida, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania

                                 ______

               Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee, Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              SAM GRAVES, Missouri
JOE SESTAK, Pennsylvania             TODD AKIN, Missouri
                                     MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)




           Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


RICK LARSEN, Washington              LYNN WESTMORELAND, Georgia, 
DAN LIPINSKI, Illinois               Ranking
MELISSA BEAN, Illinois               BILL SHUSTER, Pennsylvania
GWEN MOORE, Wisconsin                STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          MARILYN MUSGRAVE, Colorado
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
                                     VERN BUCHANAN, Florida

                                 ______

            Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DAVID DAVIS, Tennessee
HANK JOHNSON, Georgia

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


CHARLIE GONZALEZ, Texas              MARY FALLIN, Oklahoma, Ranking
RAUL GRIJALVA, Arizona               LYNN WESTMORELAND, Georgia

                                 (iii)

  
?

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Chabot, Hon. Steve...............................................     2

                               WITNESSES


PANEL I:
Allred, The Honorable C. Stephen, Assistant Secretary for Land 
  and Minerals Management, U.S. Department of the Interior.......     4

PANEL II:
Amerine, Mr. Gary, Greys River Trophies, Daniel, WY..............    18
Dvorak, Mr. Bill, Dvorak Expeditions, Nathrop, CO................    19
Velasquez, Mr. Chris, Rancher, Blanco, NM........................    21
Moyer, Mr. Scott, Down Valley Septic and Drain, Rifle, CO........    23

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    36
Chabot, Hon. Steve...............................................    38
Altmire, Hon. Jason..............................................    39
Allred, The Honorable C. Stephen, Assistant Secretary for Land 
  and Minerals Management, U.S. Department of the Interior.......    40
Amerine, Mr. Gary, Greys River Trophies, Daniel, WY..............    46
Dvorak, Mr. Bill, Dvorak Expeditions, Nathrop, CO................    50
Velasquez, Mr. Chris, Rancher, Blanco, NM........................    55
Moyer, Mr. Scott, Down Valley Septic and Drain, Rifle, CO........    65

                                  (v)




                 FULL COMMITTEE HEARING ON MAINTAINING



                   PUBLIC LANDS FOR HUNTING, FISHING,



                     RANCHING AND SMALL BUSINESSES

                              ----------                              


                        Thursday, April 17, 2008

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:43 a.m., in Room 
1539, Longworth House Office Building, Hon. Nydia M. Velazquez 
[chair of the Committee] Presiding.
    Present: Representatives Velazquez, Shuler, Clarke, 
Ellsworth, Chabot, Bartlett, Akin, and Davis.

           OPENING STATEMENT OF CHAIRWOMAN VELAZQUEZ

    Chairwoman Velazquez. Good morning. I call this hearing to 
order to address maintaining public lands for hunting, fishing, 
ranching and small business.
    As we approach Earth Day, it is an appropriate time to 
reflect on the vast natural resources of this country. This 
Nation's public lands are one of the greatest national 
resources. They serve as tourist destinations for millions of 
Americans and generate important activity for many small 
businesses. Ranchers use thousands of acres for their cattle to 
graze. Hunting and fishing guides bring in tourism dollars, and 
local economies see the benefit. There is also energy 
development to harvest oil and gas resources.
    Today's hearing will examine how Federal land policy must 
account for these diverse uses of these lands and the small 
businesses who access them. It is key that our Federal land 
policy is balanced and account for many different categories of 
small businesses that rely on public land.
    One of the key drivers of the western economy has been the 
use of these lands for recreational purposes. Over 87 million 
Americans participated in wildlife-related recreation in 2006, 
spending more than $122 billion, much of this spent on 
recreation and public lands, and the vast majority of firms 
that reap the benefits are small.
    Hunting and fishing outfitters depend heavily on the use of 
public lands. The vast majority of hunters pursue game on 
public lands. And more than 50 percent of our Nation's most 
prized trout streams originate on them. These dollars support 
outfitters, gear manufacturers, and the hotels, restaurants, 
and shops that cater to the tourists who visit these lands.
    Our Nation's cattlemen have also depended on this land for 
raising their herds since the 1800s. These ranchers are able to 
lease these lands from the Federal Government to bring their 
cattle to market. While BLM leases 160 million acres a year for 
grazing purposes, there is increased concern about access and 
whether the land is usable.
    Energy development is obviously another important use for 
our public lands. Our Nation is fortunate to have large 
reserves of natural gas, much of which is on Federal lands. 
This development has brought economy growth in communities 
across the West. However, it must be done in a sustainable and 
balanced manner.
    We are all aware the energy challenges this country is 
facing. Increased domestic production of oil and gas should be 
part of a balanced national energy strategy. But it alone will 
not address our current problems.
    The Department of Interior has been invited here to discuss 
what the agency is doing to meet these diverse needs. The 
Federal Land Policy and Management Act charges BLM with the 
responsibility of managing public land by balancing a variety 
of uses. These uses include recreation, natural resource 
development, grazing, and wildlife preservation. The law also 
requires BLM to take into account thelong-term needs of future 
generations and manage without permanently impairing the 
quality of the environment.
    However, the General Accounting Office has reported that 
BLM has not been meeting its responsibilities for mitigating 
the environmental impacts. The agency has simply not been able 
to keep up with the dramatic increase in oil and gas operations 
on public lands.
    While drilling on certain public lands is necessary and 
appropriate to meet our energy needs, it should be managed in a 
way that will not destroy wildlife habitat and diminish the 
hunting, fishing and grazing opportunities. These stakeholders 
make a very important contribution to the small business 
economy of the West, and their concerns need to be fully 
considered.
    The fact that this hearing coincides with Earth Day is not 
a mistake. Earth Day was created to raise awareness and 
appreciation for our environment, and it is my hope today to 
show that there are ways to foster economic growth without 
compromising a healthy, sustainable environment.
    I look forward to today's testimony and thank all the 
witnesses again for coming here to share their stories. I yield 
now to the ranking member for his opening statement.

                OPENING STATEMENT OF MR. CHABOT

    Mr. Chabot. I thank the Chairwoman for yielding, and I also 
thank her for holding this important hearing on the management 
of Federal lands and how best to manage those lands to benefit 
all Americans, including small business owners.
    The Bureau of Land Management in the Department of Interior 
manages about 258 million acres of land. Since the United 
States began acquiring public lands about the time of the 
Northwest Ordinance passage, there has been tension over how to 
use those lands. About a century ago, Federal land managers 
began developing a compromise for utilization of the Federal 
lands, a philosophy that can best be expressed as conservation 
for the greatest good, for the most people, for the longest 
period of time. This methodology has come to be known as 
multiple-use sustained-yield management.
    This system means that no single use takes priority over 
any other use on the 258 million acres under the Bureau of Land 
Management's control. Proper management, and let me emphasize 
proper management, should enable the public lands to be used 
for a variety of uses, be it hunting, fishing,outdoor 
recreation, grazing, or oil drilling.
    For those who know the difficulty of maintaining a nice 
lawn and a small garden, making sure that there are no weeds, 
trying to prevent the neighbors' pets from chomping on the just 
sprouting bushes, and controlling children's play on a newly 
seeded grass, just imagine trying to do something similar on 
258 million acres of land spread across the western United 
States. That is the Bureau of Land Management's job, only a lot 
more complicated because the agency is required to consider a 
multitude of uses not just growing a green lawn.
    Given the immense task delegated to an agency staffed by 
human beings, I am sure that one could cross these Federal 
lands and certainly find some laxness in the Bureau of Land 
Management's management, just as someone could travel in any 
neighborhood in the United States and find flaws in someone's 
lawn.
    The issue is not whether the BLM should manage the land for 
multiple uses. Congress put to rest that issue in 1976 with the 
passage of the Federal Land Policy Management Act. Rather, the 
question is whether current practices of managing the land for 
multiple uses satisfies the overriding ideal of using the 
Federal lands to obtain the greatest good for the greatest 
number of people for the longest period of time. I will be 
interested in the witnesses' perspectives on that issue.
    Finally, it is important to note that there are a large 
number of small businesses that are not represented at this 
hearing, the small business that must pay nearly $4 a gallon 
for gasoline. If the public lands are owned by all Americans, 
to benefit all Americans, we must not forget about the benefits 
those businesses get from environmentally sound extraction of 
oil from Federal lands.
    With that, I yield back, Madam Chair.

    Chairwoman Velazquez. Thank you.
    Now it is my pleasure to welcome the Honorable Steven 
Allred.
    Mr. Steven Allred is the Assistant Secretary for Land and 
Minerals Management in the U.S. Department of Interior. 
Previously he served as the director of the Idaho Department of 
Environmental Quality and Administrator of the Division of 
Environmental Quality in the State. He was also the President 
of the Environmental and Government Services Group of the 
Morrison Knudsen Corporation. Secretary Allred received his 
Bachelors of Science and Masters of Science degrees from the 
University of Idaho.
    Welcome, sir.

    STATEMENT OF THE HONORABLE C. STEPHEN ALLRED, ASSISTANT 
SECRETARY FOR LAND AND MINERALS MANAGEMENT, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Mr. Allred. Thank you, Madam Chairman, Congressman Chabot, 
members of the committee. I appreciate the opportunity to come 
visit with you today.
    It seems that one of the most difficult things that 
challenges us, is to have the kind of communication that is 
necessary to find solutions to many of these problems.
    I believe that it is extremely important that government 
have clear laws and rules and be responsive to the needs of our 
citizens and our clients. Experience has taught me that it is 
results that count, and clear processes help us ensure the 
quality and transparency of those actions. Also, in order to 
achieve results, it is imperative that government work 
collaboratively with States, local governments, tribes, which 
is a responsibility that we have, individuals, and other 
stakeholders to resolve issues and develop productive 
relationships and build consensus. This management approach, as 
you indicated, has yielded positive results for me, not only in 
this current position, but also in my previous capacity in 
private business and as an environmental regulator.
    One only need look at the news any of the last few days to 
see the impact that energy costs are having on all sizes of 
businesses. The Energy Information Administration forecasts 
that that increases in crude oil will continue through the 
spring and beyond. In fact, as you are probably aware, in the 
last 3 days, we have had record prices for oil. Last night, it 
closed at almost $115 a barrel. Equally important, and perhaps 
more critical, natural gas closed at $10.53. That is very 
concerning to me.
    As a result of those prices, we are going to see record 
levels for gasoline this spring and this summer. Increases in 
these energy prices, as Congressman Chabot indicated, 
especially those associated with transportation impacts, are 
going to hit small businesses hard. Certainly ranching and 
other operations, which are so dependent upon oil and gas, I 
think are going to have a real challenge as we go forward.
    As energy demand increases, along with the other multiple 
uses of these lands, we have to focus on energy supplies. 
According to the Energy Information Administration's latest 
estimates, even with aggressive energy efficiency standards, 
oil consumption will continue to rise, probably by 10 percent 
by 2030. U.S. total energy use, which is also a critical 
concern, is expected in that same time frame to increase about 
19 percent, and that is when we see what is happening in China 
and India, where demand is expected to double. It points to 
increasing difficulties in obtaining the energy that we need in 
the United States at reasonable costs.
    A little bit of background. I am just going to summarize 
this. As was said, we are stewards of some 258 million acres of 
surface and some 700 million acres of Federal onshore mineral 
estate. These lands provide outdoor recreation, energy, 
wildlife habitat, livestock grazing, timber, and certainly the 
enjoyment and protection of other natural, cultural and 
historic resources.
    With the rapid growth that we have had in the West, from 
some 20 million in 1950 to 65 million today, pressure to meet 
these various uses is complex and very demanding. Traditional 
uses of the public lands, including livestock grazing, have and 
will continue to be critical to the economic viability and the 
cultural identity of the West.
    Approximately one-third of all domestic energy produced in 
the United States comes from these resources that are managed 
by the Department of the Interior. They include oil, gas, 
renewable energy, such as solar, wind, biomass, andgeothermal. 
And these will be challenges when we start to see the 
development of these on the scale that will be necessary with 
regard to other uses.
    I know that this committee is keenly interested in the 
success of small businesses. Reliable and affordable energy is 
key to those businesses, especially the smaller operations. 
Increases in energy prices, particularly those associated with 
transportation, are going to impact our businesses, both large 
and small. But the small businesses are going to have a much 
harder time dealing with those impacts.
    There are a couple of things I think that are important to 
understand. First of all, only a small portion of BLM-managed 
lands, some 5 percent, have oil and gas production, and even a 
smaller portion, less than half of one percent, are directly 
impacted by surface disturbance in these activities. I don't 
mean to indicate that that is not a concern, because it is any 
time we have disturbances.
    Access to Federal energy resources is restricted by laws, 
regulations and many special relations. Results from a recent 
inventory we have done of some 279 million acres of onshore oil 
and gas over Federal lands indicates that 60 percent of those 
lands that contain oil and gas resources are currently not 
accessible for use of the people of the United States for that 
purpose; 23 percent of that is accessible only with a wide 
variety of restrictions which determine how much can be 
produced and during what period of time; only 17 percent are 
available under what we would call standard restrictions.
    While the BLM is seeing an increase in development on 
Federal lands, access to energy development is occurring even 
to a greater extent on private and State lands. It is important 
to note that energy development on private and State lands is 
more extensive than on Federal lands. For example, in States 
with significant Federal minerals, more than two-thirds of the 
oil production occurs on State and private land. In Colorado, 
77 percent of the production currently is on State and private 
lands. In Montana, it is 88 percent. In New Mexico, 64 percent 
of the production is on State and private land.
    Royalties collected by mineral leasing and fees collected 
for other public uses benefit the taxpayer. In 2009, we expect 
that public lands will generate onshore about $6.1 billion in 
revenues, mostly from energy development. I might also indicate 
that we expect total revenues, including those on and offshore, 
this year that we contribute through royalties will be in 
excess of $20 billion. Approximately 44 percent of the onshore 
revenues are provided directly to the States and counties. As 
you know, those support a wide range of needs such as roads, 
schools and other community and cultural resource needs. 
Wyoming's share in 2007 was $700 million. New Mexico's share 
totaled about $350 million. Colorado's share was about $117 
million.
    The BLM continually seeks new ways to balance competing 
uses and to minimize, integrate, and compensate for adverse 
effects from these development activities on Federal lands. 
Through our land use planning processes, implementation of best 
management practices, and other efforts and initiatives that we 
are involved in, we seek to ensure that oil and gas activity on 
public lands is done in an environmentally responsible manner 
consistent, to the extent possible, with all other uses.
    Madam Chairwoman, I would be most happy to answer questions 
that you might have.
    [The prepared statement of Mr. Allred may be found in the 
Appendix on page 40.]

    Chairwoman Velazquez. Thank you very much, Mr. Allred. The 
number of drilling permits approved by the Bureau of Land 
Management more than quadrupled between 1999 and 2007. This 
focus has compromised other agency efforts. In 2005, the 
General Accounting Office reported that BLM was not meeting its 
goals to protect the environment on public lands because it had 
been overwhelmed with processing these permits.
    What has BLM changed to meet its environmental protection 
responsibilities as the number of permits approved continues to 
rise?
    Mr. Allred. Thank you. I don't think there is any question 
that the response that we received with regard to new 
applications to drill wells created real constraints because of 
the manpower resources that we had. One of the things that 
Congress has done to help us is to provide for us resources to 
create pilot offices. These were pilots from the standpoint 
that they were experimental. But I think they will become the 
way that we do business.
    The issue wasn't just with the Bureau of Land Management, 
but it also was with all of the other State and Federal 
agencies and local interests that we need to deal with to make 
sure that what we approve meets as many of their needs as is 
possible. When Congress provided the additional funds for us to 
establish these pilot offices, what we were able to do is to 
bring all of the agencies into one facility and to then have 
dedicated staff to deal with these issues having to do with 
Applications for Permits to Drill.
    That has worked very well. You will soon see a report that 
was prepared by an independent organization that Interior 
brought in to monitor our progress. As you will see when that 
information becomes available, it has gone a long way to solve 
the issues that we had when we first received the onslaught of 
so many applications. Those applications continue, although in 
the last little while, we have seen a bit of a, I won't say a 
decrease, but certainly a plateauing of the number of 
applications that we are getting.
    One of the things that suffered from those other efforts 
was our ability to get people out to do inspections. And that 
is critical. When you issue these permits, you have to make 
sure that they are being applied correctly; 99 percent of the 
people that have them, do a good job. There is always a certain 
number that have to be inspected.
    Chairwoman Velazquez. Can you talk to us about--with the 
increase of drilling operations on public lands across the 
West, it is critical that BLM plan for dealing with wells when 
they run dry. Can you discuss how energy operators can restore 
land for wildlife habitat, hunting, fishing, and grazing after 
a well has been depleted, and given the fact that most of your 
inspectors are processing permit requests? And then how can you 
explain to us that more than one-third of those permits are not 
actually being used?
    Mr. Allred. Madam Chairwoman, one of the results has been 
that we have been able to get more people back on the ground to 
do the inspections to make sure that we are assuring that the 
stipulation requirements in the permits are being met. We also, 
through the appropriations that Congress provided, have 
increased the ability to do that.
    Chairwoman Velazquez. How are you doing that? In the 2005 
GAO report, they found that you lack the resources to 
adequately monitor the restoration of the habitat, the 
abandoned wells. So how are you doing that? Since 2005, what 
specific efforts are you taking?
    Mr. Allred. Madam Chairwoman, there have been a lot of 
efforts. First of all, our regulations have changed 
substantially. There are best management practices that are now 
required to be followed with not only the reclamation efforts, 
but the drilling efforts. Through the moneys that we have been 
able to utilize that Congress has given us, we have increased 
our inspection and efforts considerably in the last 2 or 3 
years. I think we are seeing a lot better compliance. We also 
are requiring bonding, requiring financial assurances that 
these things be done properly.
    We also have an effort that we call the Healthy Lands 
Initiative. It is not only the issue of those resources which 
are being impacted by oil and gas, but our bigger threats are 
from invasive species and fire. So our Healthy Lands 
Initiative, again, which Congress has helped provide funds for, 
is I think doing a lot to improve not only the mineral lands 
but also the other lands that we administer.
    Chairwoman Velazquez. I will come back. Right now I am 
going to recognize the ranking member.
    Mr. Chabot. Thank you, Madam Chair.
    Mr. Allred, let me just mention, first of all, a lot of the 
land that you manage, as we have discussed, has all kinds of 
natural resources on it, and oil is obviously available in some 
areas. When one considers that, as early as let's just say 
early 2007, say January 2007, I think the price per gallon was 
around $2.30; it is now $3.40 on average. Unfortunately, it 
seems to be heading up. So it seems pretty clear that we need 
to go after that oil.
    When you look over the decades, the technologies that we 
have available to us for going after that oil has improved 
pretty dramatically. You don't have to do as much damage to the 
environment as maybe you did a decade or two decades or three 
decades ago. Sometimes I think it is a fact that gets lost in 
the discussion. We have put whole areas, like ANWR, for 
example, where we have 16, 18 billion barrels of oil, off 
limits.
    So getting back to the technology, could you discuss 
briefly whether or not the technology has gotten better so that 
you can go after those resources in more of an environmentally 
friendly manner than you could in previous years?
    Mr. Allred. Congressman, I would be happy to. As many of 
you know, I worked for Secretary Kempthorne when he was 
Governor. He tells a story that I think illustrates what has 
happened with drilling techniques. At those times, Idaho did 
not have oil production, but we sat next to states that have 
tremendous resources, both in Utah and Wyoming. He likes to 
tell a story that if he had understood how oil drilling and gas 
drilling were going to change over the last few years, 
particularly with offset and angle drilling, Idaho would have 
been an oil State.
    There have been tremendous changes in what you see now, 
even in the last 4 or 5 years, with regard to technology as 
compared to what has happened before, which has allowed us to 
make huge changes in how we regulate these people. Now, instead 
of one well from any pad, we are seeing from 30 to 36 wells 
from a single pad. What that means is that is 36 pads less that 
have to be used in order to develop the resource.
    You have seen a transition over the last few years not only 
in the technology but also in the planning that we do, where 
the agency is concerned, because of that technology, is able to 
considerably lessen the impact to those areas where we do have 
oil and gas development, the latest being in Colorado with Rome 
plateau. That will have, we think, minimal impact as we go 
forward.
    Mr. Chabot. Could you discuss the lateral that you were 
referring to, just in layman's terms, what we are talking about 
here.
    Mr. Allred. Yes. In the past, for oil drilling, you had to 
sit directly over the hole and drill straight down or nearly 
straight down in order to get to the resource, primarily 
because of technologies that were developedoffshore. Those 
technologies are now being applied onshore. And what they are 
allowing us to do is to do offset drilling even a mile away or 
2 miles away. I think it is quickly getting to the point where, 
from a single spot, you can radially drill from that and reach 
many of the resources that are available in these fields.
    This has tremendous implications for wildlife and 
environmental because you don't have to be out there. It is not 
only the drilling that causes a problem. It is the 
transportation. It is the utilities. It is all the things where 
you have to go out and run to individual wells.
    Essentially, with these new methods of development, we are 
not allowing that. We are requiring them to drill from these 
central sites. All the utilities have to be underground going 
to that central site. Of course, all the well heads are in one 
location so all the support facilities are in that location.
    So it is, I think, a tremendous improvement in how 
development is occurring in these areas. Now there are some 
resources that are not conducive to that, but most of the major 
resources are.
    Mr. Chabot. So just to make sure that it is clear what you 
are saying, if this table up here had oil in various locations, 
rather than disturbing the environment at the surface level in 
a whole bunch of places and digging a number of drilling sites, 
you could have, for example, this one site, dig here and then 
go under the ground in different directions, only disturbing 
this one area and not all around this place. Is that correct?
    Mr. Allred. Congressman, that is correct.
    Mr. Chabot. Thank you.
    Madam Chair, I yield back my time.
    Chairwoman Velazquez. Mr. Shuler.
    Mr. Shuler. Thank you, Madam Chair.
    Mr. Secretary, thank you for your appearance today.
    The Federal Land Policy and Management Act charged the 
Bureau of Land Management with the responsibility of managing 
public lands and balancing a variety of uses. This includes 
recreation, natural resource development, grazing, and wildlife 
prevention. How does the BLM manage that based on small 
business practices, guided tours, hunting trips with guides? 
How do they manage that based on the variety of things they are 
charged to do?
    Mr. Allred. Congressman, our activities as we manage these 
lands are done pursuant to a resource management plan. Those 
plans are developed over fairly extended periods of time. In 
fact, some of them now have taken 7 years, that we are just 
finishing up. Those resource plans involve a tremendous amount 
of public input and are usually controversial because you are 
talking about conflicting uses. But our goal is to represent as 
many of those uses and make the smartest decisions we can with 
regard to that plan.
    Once the plan is then adopted, and that is a public 
process, with numerous public opportunities for input and 
review, then we are required to administer those particular 
lands with regard to that plan. Even then, there are lots of 
disputes and lots of conflicts that our managers have to make 
smart decisions about. Our goal is to make sure that, first of 
all, there is a lot of opportunity so we can balance those 
needs. In those cases where there are activities that are 
disturbing other activity, we attempt to mitigate, to the 
extent that we can.
    Secondly, we make sure that what we do, we do in an open 
and transparent manner so people can understand why we are 
doing what we are doing. Even then, we get a tremendous number 
of lawsuits from one issue or another.
    I might say that one of the biggest impacts we are having 
now on western lands, and this is not only West, it is 
elsewhere as well, is invasive species and fire. That, perhaps, 
is doing more damage to more uses and impacting I think small 
businesses as much as anything we do on Federal lands.
    Mr. Shuler. As an avid outdoorsman, there is nothing I 
enjoy better than wing shooting, grouse, quail. I certainly 
enjoy that. In your testimony, you made reference that most of 
the gas and oil drilling is being done on private lands and 
State lands. I think that is all the more reason why, on our 
Federal lands, what we have to do is be able to protect, to be 
able to have the conservations and to be able to protect the 
grouse and the quail and the other species, so the small 
businesses and ranchers can be able to use these lands for 
economic development in their communities.
    So that is not really a question, just a comment, that the 
more we can provide for the ranchers and the fishing guides and 
the outdoorsmen, I think it impacts a community in a very 
positive way because they can't go on some of the other State 
lands, or certainly on the private lands.
    Madam Chair, I yield back.
    Chairwoman Velazquez. Mr. Davis.
    Mr. Davis. Thank you, Madam Chairman.
    Thank you, Mr. Secretary, for being with us today.
    Before coming to Congress, I was actually a small business 
owner from the mountains of east Tennessee. Beautiful natural 
area. I hope you have been there and visited the mountains. As 
a small business owner, I understand that the first thing you 
have to do is get customers in the door, and you also have to 
be able to have your fleet of trucks be able to travel, and you 
need energy to do that.
    I think we need to make sure that we have a policy in 
Congress that we allow small businesses to grow into big 
businesses, and if you put a cost on a small business like 
increasing energy costs--and I understand last January, oil was 
about $56 a barrel. It is up to about $114, $115 a barrel now. 
And we are becoming much more dependent on foreign oil.
    The people that I talk to in northeast Tennessee want us to 
have access to American energy. And if we are going to do that, 
we need a policy that would allow us to use energy on Federal 
land, in my opinion. It is basically an effect in small 
business of supply and demand. If you have more of a product, 
costs will go down. If you limit a product, costs will go up.
    I noticed in your testimony that, right now, just pick the 
State of Colorado, that 77 percent of the production is not on 
Federal lands. So that means that about three-fourths of the 
production is coming other than Federal lands. If we had 
policies here that would actually allow for more use of 
American domestic produced energy and we had a policy that was 
pro-growth for small business, do you think we could increase 
that production on Federal lands and still have it in an 
economically and environmentally friendly way?
    Mr. Allred. Congressman, yes. What you see happening, I 
think, is that the State and private lands are easier to 
develop. So the first ones to be developed have been those 
lands. They don't have the restrictions that we do with regard 
to Federal. As those are depleted, and they will be, you are 
going to see more and more demand to do things on Federal 
lands, I think. In fact, we are already seeing it.
    I come from a ranching background, and I am concerned about 
the ability of small businesses, particularly rural businesses, 
to survive with these kinds of pressures. But one of the 
problems I believe we are seeing is that part of the pressure 
to develop the western lands is because we don't have access to 
some of the offshore areas. Somehow we need to find a balance 
so that, as we go after energy resources, we do it based upon 
the areas with the least impact.
    I am not foolish enough to think we have to develop all 
these areas. But when we throw all the pressure in just 
selected areas, it has an inordinate impact in those areas. So 
I think that if we had a more consistent energy policy with 
regard to oil and gas, we might--and we could start over--we 
might choose to have a more balanced process between onshore 
and offshore, and try to look at those places where the impact 
might be less than it is in some of the areas that are now 
being developed.
    Given that we don't have that, given that we don't have 
access to some of those areas, we are trying to make sure that 
we try to do as much as we can to meet the U.S. needs and 
protect as much of the other values as we can. That is not just 
fish and wildlife. It is a lot of cultural issues, a lot of 
other issues as well. For example, ranching life. We are very 
concerned that we are going to lose that.
    So we have to do what we can to perpetuate, I think, those 
lifestyles as well.
    Mr. Davis. Could you quickly tell me about your best 
management practices?
    Mr. Allred. I would be glad to. To encourage and demand 
state-of-the-art practices, we require that those best 
management practices be applied across the board. And these 
have become more comprehensive over the last few years. In 
fact, they continue to evolve to be more comprehensive. They 
are designed to make sure that we use the best practices 
possible, not only in oil and gas development, but in other 
uses as well. So I think they are.
    I think the Federal Government has a good set of those. 
What I am trying to do in talking with the Governors of the 
Western States is to make sure and encourage them to adopt the 
same set of standards. And if the State and Federal Government 
require them, they will be applied to Federal lands as well. So 
I think they go a long way to meeting some of the objectives 
that you and we have.
    Chairwoman Velazquez. The time has expired.
    Ms. Clarke.
    Ms. Clarke. Thank you very much, Madam Chair, Ranking 
Member Chabot. Madam Chair, it is great to be here today 
because, for most of our constituents in Brooklyn, our 
relationship to this issue comes to us by way of television 
sometimes. For me, Bonanza comes to mind, and motion pictures. 
However, we can relate to the work of our ranchers and small 
business entrepreneurs in regards to the provision of foods for 
our communities. So this is a very important hearing here 
today.
    On a serious note, I want to personally thank you, Mr. 
Allred, for testifying before us today, and I hope that, by the 
end of the hearing, I will be more informed on how your agency 
is meeting the needs of these small businesses.
    I understand that in some areas of the West, increased 
drilling has turned once spectacular landscapes into 
industrial-like zones. I would like to get a sense from you of 
what evidence you have gathered in your agency that 
substantiates where there has been severe habitat destruction.
    Mr. Allred. Congresswoman, one of the things that I think, 
again, we have to understand is when we talk about the total 
amount of Federal lands that are involved in oil and gas, it is 
a very small amount. That doesn't mean it is not important. We 
are going to make darn sure, and, again, from my background as 
an environmental administrator, regulator, I am particularly 
concerned that what we do, we do right. But I think we also 
have to understand that most of the businesses involved in oil 
and gas are small businesses. They are not the big mega 
companies that people like to talk about with oil and gas.
    I also think it is important to understand that there are a 
lot of other pressures that are impacting those Federal lands. 
I just mentioned invasive species and fire. That has a huge 
impact on our Federal lands and on small businesses. When one 
of these areas burns out, as happened in Utah and Idaho, it has 
a tremendous impact on these rural communities and rural 
businesses.
    Ms. Clarke. What is your recommendation, after knowing that 
this is something that happens annually, perhaps--it is a 
natural occurrence sometimes. It is an accident sometimes. It 
is carelessness on behalf of our citizenry. What best practices 
do you believe must be put in place to turn that around as 
quickly as possible so that we are all participating in the 
remediation and rehabilitation of these areas?
    Mr. Allred. Fire occurs naturally. In fact, most of the big 
fires were lightning caused. But the reason they burn like they 
do is because of fuels that normally were not there. The sage 
brush habitats and the western habitats are generally what we 
call fire regime habitats. They are used to fire. What has 
happened is the vegetation has changed so much, the fires are 
so much hotter, that they kill everything. They in effect 
sterilize the land.
    Fuels management is important. Dealing with the cheatgrass 
and the invasive species is particularly important. That costs 
a lot of money. Frankly, we and the State governments are not 
able to deal with that issue effectively.
    Chairwoman Velazquez. Will the gentlelady yield for a 
second?
    Ms. Clarke. Certainly.
    Chairwoman Velazquez. Mr. Secretary, can you tell me what 
responsibilities energy firms have to reclaim oil drilling 
sites, and is the Department enforcing this?
    Mr. Allred. Madam Chairwoman, they have an absolute 
responsibility to reclaim those sites. We will not release 
their bond or let them do other activities until it is done. We 
actually place requirements on when it has to be done.
    We are getting better at that. The government is like any 
other organization; it has problems. You have a lot of people. 
Any time you deal with lots of people, you have to manage those 
people. We are learning a lot. I think that over the last 
couple of years that I have been associated with this agency, 
practices have improved substantially. That has been one of my 
objectives. I think we are doing a good job now.
    Chairwoman Velazquez. Do you have the manpower, based on 
the General Accounting Office report in 2005?
    Mr. Allred. I think we can do more if we had more manpower. 
You will see, I think, in the 2009 budget and at least 
recommendations for 2010, I think you will see some additional 
requests for this type of manpower.
    Chairwoman Velazquez. Thank you for yielding.
    Ms. Clarke. No problem, Madam Chair.
    Just sort of on the note that the Chairwoman has struck 
here, it is my understanding that the impacts of the industrial 
drilling and oil and gas development, the impacts range from 
being site specific, for example, removing several acres of 
vegetation at an individual well pad; to those affecting a much 
larger area, such as fragmenting tens of thousands of acres of 
crucial winter range for mule deer.
    We talk about manpower, but we know what the causes are and 
what the effects are. What I am not getting from you is 
specifically how we are going to go about addressing it. What 
is required? What level of cooperation between State and 
Federal Government, who in the agency will be responsible for 
being proactive here? We are at the stage where we understand 
what the impacts are. We now want to jettison ourselves into 
the 21st century to be much more proactive on that.
    Just in closing, if we can get some response.
    Mr. Allred. I would be glad to. The government has to have 
a name for everything, so we have a name we call Healthy Lands. 
That involves a variety of factors. One of them is to look at 
not only how we do oil and gas but other activity as well to 
identify, for example, migration routes, and to make sure that, 
as we authorize activities, that we don't fragment or interrupt 
those migration routes. Some of the newest plans that you see 
coming out are doing a much better job of that. It is a goal of 
ours to do that.
    Ms. Clarke. Thank you very much.
    Chairwoman Velazquez. Time has expired.
    Mr. Bartlett.
    Mr. Bartlett. Thank you. I am sorry I couldn't have been 
here for your testimony.
    Last night, oil hit $115 a barrel in the Asian markets. The 
day before yesterday, Russia announced that they had reached 
their maximum oil production, and they probably could not 
increase above that.
    For the sake of discussion, I would like to make a counter 
argument that drilling in our public lands and in ANWR and 
offshore is pretty much the equivalent of giving cocaine, more 
cocaine, to the addict. If all you are doing is feeding the 
habit, that is exactly the wrong thing to do.
    The two big agencies in our world that track the production 
and consumption, which are the same--nobody is storing big 
amounts of oil--are the IEA and the EIA, the International 
Energy Association and the Energy Information Administration, 
the latter a part of our Department of Energy. Both of those 
entities indicate that, for about the last 3 years, production 
of oil worldwide has been flat. During those same 3 years, 
demand has been going up. And what happens when demand is up 
and supply is inadequate? Prices have gone from $50 a barrel to 
$115 a barrel.
    It is very probable that the world has reached its maximum 
capacity for producing oil, that we are now producing as much 
oil per day as we will ever produce. That happened in the 
United States in 1970. And in spite of drilling more oil wells 
in all the rest of the world put together, in spite of having 
the best technology in the world for finding oil and for 
enhanced oil recovery, we still today are producing less than 
half the oil that we produced in 1970, or importing about two-
thirds of our oil.
    If we are drilling in these areas to help us break the 
habit, then I am supportive of that. But I have 10 kids and 16 
grand kids and 2 great grand kids. And if we could pump ANWR 
and our public lands and offshore tomorrow, what would we do 
the day after tomorrow? And there will be a day after tomorrow. 
Don't we really need to be focusing on alternatives? Wouldn't 
it be nice to save a little oil for our kids, grand kids and 
great grand kids, since we are leaving this horrendous debt, 
not with my vote, but we are leaving them a horrendous debt, 
wouldn't it be nice to leave them a little oil? Shouldn't we 
really be focusing on alternatives and how to live a 
lifestyle--we are one person in 22 in the world. We use a 
fourth of the world's oil. There are countries in the world 
that use a fourth as much energy as we do, who live as long as 
we do, who educate their people as well as we do. We don't need 
to use as much energy as we use to live the golden life, do we? 
And wouldn't it be--shouldn't a top priority be--if we are 
going to drill in these areas, and I will vote to drill in 
those areas when I am assured that all the energy we get there 
is going to be used for developing alternatives. Because we 
have now blown 28 years. We knew darn well we were going to be 
here today or about this time with oil over $100 a barrel, 
because M. King Hubbert was right about the United States. We 
peaked in 1970. In 1980, we knew darn well he was right. He 
predicted the world would be peaking about now.
    Where has our sanity been for the last 28 years that no 
responsible country in the world has taken the correct path, 
that is to develop alternatives so that we run down the other 
side of what Hyman Rickover called this Golden Age, that we 
would still have a high quality of life.
    Mr. Allred. Congressman, I agree with you that the solution 
to our problem is not oil and gas. However, if you look at the 
Energy Information Administration forecast, they indicate that, 
by 2030, you may only have 6 to 10 percent of the U.S. energy, 
total energy, not oil and gas, supplied by what you refer to as 
renewables.
    We are aggressively pushing renewable energy. In fact, you 
will see an announcement today of a number of areas that are 
being opened up for offshore renewable energy development. That 
is important. But I think, in any forecast that I can see or 
any scenario that I can see, if you want to maintain something 
similar to the economy that we have, particularly with regard 
to small businesses, oil and gas, and particularly gas, and I 
have a bigger concern about natural gas than I do oil and the 
price of what is happening there, that if we want to continue 
the kind of economy that we have, it is going to take oil and 
gas as part of that formula.
    It is interesting to note that, and there are actually some 
huge proposals for renewable energy, they are less acceptable 
when we go out there and try to process applications than oil 
and gas is. Because oil and gas is usually a fairly transient 
impact. You may only see, for example, a drilling rig for a few 
months or a year and then all that is left is a well head, 
generally. When you put, and I am a big fan of and I am pushing 
renewable energies, but when you put a wind machine up there, 
it is obvious for a long time. When you cover the surface of 
the desert with a solar facility, it is there a long time. And 
there are not other alternative uses when you do that.
    Chairwoman Velazquez. The time has expired.
    Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Madam Chair.
    Thank you, Mr. Allred. I was, being a bit tardy myself, I 
couldn't agree with Mr. Bartlett more in his testimony, but if 
you had further on Mr. Davis's comments about best practices 
and didn't get to finish, I would give you my time to do that. 
If you were finished with your thoughts, I don't have a 
question. I don't know if you were done with the best practice 
summary or not when the time ran out. I was going to give you a 
chance to comment on that, or follow through.
    Mr. Allred. Thank you, Congressman. I would just say that 
we do have a lot of best management practices, and they cover 
everything, not only with oil and gas, but they cover 
everything from drilling, to bonds, to utilities, a number of 
things. They are improving substantially as we go forward and 
learn. I think that is going to improve and hopefully lessen 
the impacts and the conflicts that occur.
    Mr. Ellsworth. I have no further questions.
    Chairwoman Velazquez. Mr. Akin.
    Mr. Akin. Thank you, Madam Chair. I had just a wonderful 
chance over the Easter break to get out and see some of the 
lands that you all are managing and see some States that you 
manage, more than half the State, with the lands that we have 
absorbed as a government. Kind of taking a look at it from the 
people that live out in those areas, I can see why there might 
be some resentment sometimes at the fact that more than half of 
somebody's State has been taken by the government. So the topic 
we are talking about is of a lot of interest to a lot of 
people.
    I appreciate Mr. Bartlett's sermon there about the oil and 
everything. I am an engineer by training as well. I guess the 
concern I have is that, doesn't it seem to you that somewhere 
along the line we are going to have to be able to convert our 
coal more efficiently into some type of fuel like a liquid fuel 
and also that we should be pushing the nuclear solution? 
Because both of those seem like there is a lot of American 
energy that we can use wisely, and we don't have to be 
dependent on all kinds of other corners of the world that may 
be a little bit unstable. From your point of view, does that 
seem to be a reasonable sense?
    I mean, we drove by those windmill farms, and I think I am 
kind of a environmentalist, but I am thinking those are really 
eyesores. I would be more comfortable with some of the success 
we have had with nuclear and with coal.
    So if you would like to comment on that, sir.
    Mr. Allred. Congressman, we are going to have to have a 
wide variety of sources. In fact, I tell people that if you 
look at the EIA forecast, it is going to take every possible 
thing we can do if we want to maintain the economy that we 
have.
    Nuclear, while it is not my direct responsibility, I have 
worked in a lot of nuclear issues, and it will be very 
important to us. But it is probably going to be beyond 2030 
before it contributes substantially. There are two other 
resources that we have got to learn how to do better with. 
Certainly, coal. We have tremendous coal resources, both on 
Federal lands and on other lands.
    The other resource we have, which we have not developed and 
which will be challenging to do so, are the oil shale resources 
in the Rocky Mountain States. Those are tremendous resources, 
and it will be a challenge to figure out how to do it. Those 
are opportunities I think we have to find solutions to help 
meet our needs in the future.
    Mr. Akin. Thank you.
    Thank you, Madam Chair.
    Chairwoman Velazquez. I now recognize Mr. Bartlett for the 
second round.
    Mr. Bartlett. Thank you very much.
    Sir, you mentioned that in your current business climate, 
it is going to be very difficult for businesses, including 
small businesses, to continue to prosper without the 
accessibility to fossil fuels that we have had; that, 
therefore, the right thing to do is to go out and aggressively 
drill for the little bit of fossil fuels that remain. If our 
civilization was coming to an end, that might be a wise thing 
to do.
    Sir, you cannot pump what is not there. There is increasing 
evidence that the world just will not have the ability to 
increase the production of oil and gas in the future. I would 
be very suspect, sir, of the prognostications of USGS and of 
what oil is going to be found. Laherrere says their projections 
are absolutely implausible, that we are going to find as much 
more oil as all the known reserves that exist in the world 
today. Even, sir, if that were true, it only moves peak out 
about a dozen years.
    Albert Einstein, when he was asked what the next great 
force in the universe was going to be, he said the greatest 
force in the universe was the power of compound interest. Two 
percent growth doubles in 35 years. It is four times bigger in 
70 years, eight times bigger in 105 years, and 16 times bigger 
in 140 years.
    Mr. Bartlett. We just are going to have to find a way to 
have prosperous businesses without using increasing amounts of 
fossil fuel, because, sir, the evidence is they are just not 
going to be there. Our country reached that point in oil in 
1970. In spite of drilling more oil wells in all of the rest of 
the world put together, we still are producing only about half 
the oil that we produced then.
    Coal has been mentioned. There is probably about a hundred 
years of coal remaining, not the 250 years we have been 
quoting. The National Academy of Sciences says it hasn't been 
looked at since the 1970s now, and they believe about a hundred 
years. Even, sir, if there were 250 years, if you increase its 
use only 2 percent that shrinks to 85 years. If you use some of 
the energy to convert it to a gas or a liquid it shrinks to 50 
years. And if you share it with the world and there is no 
alternative to sharing it with the world, because if we use oil 
that we get from coal, then the oil we might have bought from 
Saudi Arabia is bought by somebody else, isn't it? So from a 
practical world perspective we must share whatever energy we 
develop with the world, because if we are not using energy from 
over there someone else has access to that energy.
    You are correct, sir, there are huge amounts of potential 
energy in our oil shales, more than all the known reserves of 
oil in all the world, recoverable reserves in all the world. 
But, sir, there is also more energy in the tides or in methane 
hydrates, more energy in methane hydrates than all the fossil 
fuels in all the world, including those that we have burned so 
far. But because the potential energy is there doesn't mean it 
is in your gas tank. There is an old adage that says that 
energy and power to be effective must be concentrated.
    Shouldn't we have started a long time ago an aggressive 
program to develop alternatives knowing that since the United 
States peaked in 1970, which is certainly you know an 
indication that we are a major part of the world, if we peaked 
in 1970 and the same person who predicted that peak predicted 
the world, we would be peaking about now, shouldn't we have 
started a long time ago to develop alternatives rather than 
sitting here today using ethanol from corn, doubling the price 
of corn, increasing the price of wheat and soybeans and rice 
around the world, headlines above the fold, Washington, the New 
York Times a couple of days ago, saying that the leaders of the 
Third World countries were complaining that we were starving 
their people because our corn ethanol program has more than 
doubled the price of corn, wheat and soybeans and rice around 
the world? Shouldn't we have started a very long time ago, sir, 
to do this?
    Mr. Allred. Congressman, I think it is extremely important 
that we identify and develop alternative energy sources. What 
you find though is that if we rely, which we do, on private 
business to accomplish these things it all has to do with the 
price of energy. And many of these things even today are very 
difficult to get people to invest money in and to receive an 
adequate rate of return.
    Mr. Bartlett. Isn't that why we have a government, sir, 
that is supposed to exert leadership?
    Chairwoman Velazquez. Can you answer with a yes or no since 
we don't have much time left?
    Mr. Allred. That is a tough one to answer.
    Chairwoman Velazquez. Let me just say the time has expired. 
But Mr. Bartlett, two things. This side of the aisle really 
enjoys your participation when it comes to energy policies, and 
I for one will be making a recommendation to any Democratic 
administration to appoint you as Department of Energy 
Secretary. The time has expired. And I want to take this 
opportunity again, Secretary Allred, to thank you for your 
participation. And we will continue to monitor BLM's mission to 
make sure that steps are taken to protect small businesses that 
are such an important sector of our economy.
    Mr. Allred. Madam Chairwoman, it is a pleasure to be here 
and visit with you, and any time that you would wish to talk I 
am most willing to do so.

    Chairwoman Velazquez. The gentleman is excused, and I will 
ask the witnesses of the second panel to please come forward. 
Good morning, gentlemen. And I will introduce our first witness 
Mr. Gary Amerine. Mr. Amerine is the owner of Greys River 
Trophies located in Daniel, Wyoming. His business provides 
hunting and summer horseback trips in the Wyoming ranch. Mr. 
Amerine has been in the big game hunting and back country 
recreation business for over three decades. Gentlemen, welcome. 
And you have 5 minutes. That is the timer. With the green you 
start. The yellow is telling you that your time is almost there 
to expire. And the red you should wrap up. Thank you.

 STATEMENT OF MR. GARY AMERINE, GREYS RIVER TROPHIES, DANIEL, 
                            WYOMING

    Mr. Amerine. Chairwoman Velazquez, members of the 
Committee, thank you for the opportunity to speak to you. My 
name is Gary Amerine, and I own and operate Greys River 
Trophies with my wife Jennifer. Our small business is a 
hunting, fishing and horseback riding outfit in the Wyoming 
Range of western Wyoming. These mountains provide a livelihood 
and a safe environment where we have lived for many years and 
have raised three wonderful daughters.
    People from all over the world come to enjoy the basin 
where I live. They come to hunt, they come to fish, they come 
to just relax. Nearly every type of recreation is here; back 
country skiing, snowmobiling, horseback riding, backpacking, 
canoeing and much more. In recent years the production of 
natural gas has brought many new jobs to the region, and our 
economy has shifted suddenly from tourism and agriculture to 
extraction. Some businesses enjoy the bustling economy, but the 
rapid increase of gas production on public lands has also come 
at a price. Small tourism businesses like mine in and around my 
home town of Pinedale, Wyoming are paying the price of the 
rapid growth. Our business depends upon our great outdoors 
heritage, particularly abundant wildlife and fish populations 
and wide open beautiful vistas. I have got to tell you that all 
three are in decline in the rural area where I live. Like I 
said, there is a price to pay for the boom we are experiencing.
    Every year I have hunters come to my hunting camp from all 
over the country and even other parts of the world. They spend 
money in my hometown and they pay for my services. Some are 
starting to go other places rather than return for a hunt with 
me. Why? Because fewer licenses are available to nonresident 
hunters than in years past. Nonresident mule deer licenses have 
dropped from 1,400 to 800 in the past 5 years, a reflection of 
our declining deer herd which has fallen nearly 50 percent in 
recent years due in part to the ongoing impacts of energy 
development.
    The gas industry has also impacted a diversity of the 
economy across the Rocky Mountain region. When our local 
Sublette County Outfitters and Guides Association in Wyoming 
went to host the annual spring convention of the Wyoming 
Outfitters and Guides Association this past spring, there were 
not enough motel rooms available for everyone as gas workers 
had rented them all. The convention had to be moved to another 
community, giving that chapter the opportunity to reap the 
benefits of hosting the spring convention. This is a meeting 
that brings several thousand dollars to the host community, 
money that the Sublette County outfitters use for the benefit 
of the local community. A portion of this money would have been 
used for the funding of local college scholarships. Sublette 
County will not have the opportunity to host this event for 
several years as the convention rotates around the State. Sure 
the nonsustainable industry brings money to our town but 
tourism is renewable. I think we can have both industries, I 
think we can have balance.
    Right now the Wyoming Range Legacy Act, S. 2229, is working 
its way through the Senate. This is a bill that gives us a 
little bit of balance by setting aside 1.2 million acres of 
public national forest from future oil and gas leasing. This is 
a place where other uses and other diverse businesses 
contribute to other segments of our economy, in particular 
ranching and tourism. These are aspects of our economy that are 
sustainable and renewable. Oil and gas are not.
    I am not against oil and gas development. I am not a 
hypocrite. I heat my home with natural gas, I burn fossil fuels 
when I haul my horses in the mountains. But I do think there 
are places that are too special to drill. Come out and see for 
yourself. I will have a horse saddled for you.
    Wyoming is leading the way in energy production. Sublette 
County, where I live, is a big part of it. Two of the country's 
largest gas fields, the Pinedale Anticline and the Jonah Field, 
are within a short drive of my house. The impacts to wildlife 
in both these areas from intense energy development have been 
dramatic. Researchers have found mule deer responded to 
development immediately showing avoidance and a change in 
habitats which has ultimately led to the decline in the mule 
deer populations by 46 percent.
    We Wyoming people are a practical lot. We know that 
sometimes it is tough to live here, far away from shopping 
malls and interstates. But we also love our wildlife and our 
wild country. We know that there is a place for balance. Right 
now we feel like that scale is tipping very much in favor of 
the gas industry over the traditional ranching and tourism 
economy.
    Over the past decade, the Federal Government has leased 
nearly 27 million acres for oil and gas development, resulting 
in an unprecedented loss of fish and wildlife habitat in the 
Rocky Mountain States. Nearly 20 percent of Wyoming, accounting 
for more than 13 million acres, is leased for oil and gas 
development. We would like to keep some of our valuable public 
land for our kids, for their kids, for your kids for balance.
    Again, thank you for the opportunity. I am happy to answer 
any questions.
    [The prepared statement of Mr. Amerine may be found in the 
Appendix on page 46.]

    Chairwoman Velazquez. Thank you Mr. Amerine. Our next 
witness is Mr. Bill Dvorak--
    Mr. Dvorak. Dvorak. Close.
    Chairwoman Velazquez. --owns Bill Dvorak's Kayak and 
Rafting Expeditions in Nathrop, Colorado. His business was 
founded in 1969 and provides whitewater rafting, kayaking and 
fly fishing trips in 11 rivers across the West. Mr. Dvorak's 
business has been featured in National Geographic and on ESPN. 
Welcome, sir.

  STATEMENT OF MR. BILL DVORAK, DVORAK EXPEDITIONS, NATHROP, 
                            COLORADO

    Mr. Dvorak. Thank you, Chairwoman Velazquez, members of the 
Committee. Thanks for the opportunity to speak to you. I am 
Bill Dvorak, and I was raised on a small ranch about 20 miles 
north of Sheridan, Wyoming near the Montana border.
    I have been outfitting and guiding hunting, fishing and 
river trips in Colorado, Utah, Wyoming, New Mexico and Texas 
for the last 30 years. While outfitting and guiding these trips 
I cover tens of thousands of miles each year and have developed 
an intimate understanding of the West and its special places. 
In the last few years I have witnessed unprecedented industrial 
grade energy development throughout the intermountain West.
    You will see from a map of the rivers I run that I outfit 
right in the heart of oil and gas development. I am willing to 
bet that everyone you will be hearing from today agrees that 
oil and gas drilling is a legitimate and important use of 
public land. I personally support responsible energy 
development wholeheartedly. The problem is that over the last 6 
years or so the oil and gas industry has become the dominant 
tenant of the public lands where subsurface fossil fuels are 
found. In fact, the BLM's current policy is so out of balance 
that there is rising concern, a cause of concern among State 
and local elected officials, game and fish departments, 
hunters, anglers, ranchers, farmers and other residents of the 
real West. But the lands we have used for a generation is 
changing and it is not for the better.
    With 26 million acres of public land leased to oil and gas 
companies already and 126,000 new wells planned for the next 15 
years, it is no surprise that people are concerned. There is no 
doubt in anyone's mind that energy development will take place. 
The question is will it be done in a way that protects wildlife 
habitat and the outdoor heritage that is part of the 
distinctive western way of life.
    It is important to remember that wildlife, rivers, streams 
and entire landscapes are the true economic foundation of this 
region, and they all depend on conserving key habitat on public 
lands. If we don't figure out how to drill for oil and gas with 
a smaller industrial footnote on our public lands the other 
uses of these lands will continue to suffer.
    The latest U.S. Fish and Wildlife Service reports found 
that fishing contributes about $582 million every year to the 
Colorado economy. Hunting contributes another $449 billion. And 
wildlife watching alone contributes $1.4 billion to the 
Colorado economy in 2006. That is over $2.5 billion in one 
year. Clearly hunting and fishing are important parts of 
western economy, and protecting pristine habitat on public 
lands plays a critical role in maintaining the ability for 
individuals, outfitters and small businesses to partake in 
these activities and make a living.
    Many of the small mom and pop businesses in rural Colorado 
make about 70 to 80 percent of their yearly income in the 2 to 
3 months of hunting season. There are recently 5 spills of 
drilling mud and drilling related chemicals in Garden Gulch on 
the western flanks of the Roan Plateau, only one of which was 
reported by industry. In one spill alone more than a million 
gallons of mud and chemically tainted water found its way into 
the gulch, which eventually feeds into the Colorado River, a 
river that I use to make a living. These spills were 
particularly difficult for me to hear about because I fly 
passengers on my Desolation and Gray Canyon trip on a small 
plane from Grand Junction, Colorado. All they see on the flight 
until they get to the landing zone on the mesa is oil and gas 
wells and the accompanying roads, pipelines and infrastructure 
that go with them. I would love to be able to tell my clients 
that development isn't going to impact their back country 
experiences, but I simply cannot say that with conviction, 
given the pace of development right now and the fact that it is 
often done without regard to fish, wildlife and water 
resources, and there is little or no regulation.
    I am proud to say that I am currently involved in an effort 
to develop real solutions to the challenges we face in the West 
and push for those changes in Congress and the incoming 
administration. Sportsmen for Responsible Energy Development, a 
collaborative campaign that was launched yesterday involving 
the National Wildlife Federation, Trout Unlimited and the 
Theodore Roosevelt Conservation Partnership and hunting and 
fishing groups and businesses around the West, is a historic 
effort to bring balance to our public lands energy policy. 
Together we have developed the Sportsmen's Bill of Rights on 
Energy Development, a comprehensive list of 10 rights that all 
sportsmen should enjoy when it comes to public lands. We are 
working to have these incorporated into legislation and into 
new administrative rules, for our public lands support multiple 
uses and don't focus only on energy extraction.
    With the Bill of Rights in place small business owners like 
me will be able to continue to maintain the lifestyle we love 
and sustain ourselves and our families while continuing to 
operate on public lands. We should all be able to tell our 
children and grandchildren we did what we could during our 
lives to leave them something, to give them the same quality of 
life we have had, to know that they will take their children 
and grandchildren to the same places our parents and 
grandparents took us to learn how to hunt, fish, hike and 
develop an appreciation of the world around us.
    I am here before you today and out on the front lines 
tomorrow making sure I can say these things to my family in my 
old age and to do so with a clear conscience. Thank you for 
your time.
    [The prepared statement of Mr. Dvorak may be found in the 
Appendix on page 50.]

    Chairwoman Velazquez. Thank you, Mr. Dvorak. Our next 
witness is Mr. Chris Velasquez. Mr. Velasquez is a fourth 
generation rancher from Blanco, New Mexico. Mr. Velasquez has 
been a rancher all his life. In 1995, Mr. Velasquez and his 
wife were awarded the Rangeland Management Award for New 
Mexico, nominated by the Farmington Bureau of Land Management 
Office. Welcome, sir.

 STATEMENT OF MR. CHRIS VELASQUEZ, RANCHER, BLANCO, NEW MEXICO

    Mr. Velasquez. Good morning, Chairwoman Velazquez and 
members of the Committee. Thank you for inviting me to address 
this Committee. My name is Chris Velasquez and I have been 
ranching all my life. My great-grandpa ranched in the same area 
where I currently ranch. In 1995, my wife and I were awarded 
the Ranchland Management Award for New Mexico.
    I am not opposed for those companies to drill on BLM land 
if they do it in a responsible manner. In 2006, because the 
increased number of wells, pipelines and roads on 22,000 of our 
allotment made it uneconomical to run summer cattle there, I 
felt I had to sell it. This allotment was the most impacted of 
the BLM field office of the allotments. Roads, pipelines, 
wellpads, sandstone quarries, disposal and transmission sites 
all are the results of reducing availability to natural forage 
for the cattle and wildlife. The industry is reluctant to 
follow reasonable business practice to remedy these business 
losses. Not paying on a reasonable amount of damage money in a 
reasonable amount of time, I haven't been paid damages yet for 
a calf injured by a vehicle in March of 2007 or for cattle that 
escaped on the same time due to lack of required cattleguard 
maintenance.
    This is a compressor station within 2 miles of my home, and 
the level of the noise is so high it reaches inside my home. 
This map is from around 2004 from Google Earth. It shows the 
area of our ranch. Each white dot is a wellpad or an associated 
oil and gas location. A spiderweb of roads and pipelines 
fracture the area and make ranching less and less profitable.
    These are two more aerial photos of the ranch. In 2005 this 
BP unlined pit was full of oil by-products and oilfield trash. 
The fencing around this pit did not meet BLM standards. My 
cattle, as well as wildlife, had easy access to this 
contamination.
    BP constructed a landfarm for remediating contaminated soil 
within 100 feet slightly uphill of this livestock watering 
pond. This was done on my private property without my 
permission. I found this pond one day with a thick oily film of 
water. My cattle were drinking from it and I took three test 
samples from it. One sample showed positive petroleum content 
and three showed traces of petroleum content. BP made no effort 
to respond to this problem.
    On March 8, 2008, I observed this cow drinking from this 
tank. This tank was dry when I found it, but had 19 inches of 
liquid in it recently, which was evidenced from the oily fluid 
level mark on the inside of the tank. My whole herd was in this 
area and also had access to this tank. Chickenwire is not a 
sufficient barrier. This tank should have had either a complete 
expanded metal cover or approved BLM fence around it to protect 
access to livestock and wildlife.
    I have complained twice to BP and BLM about oil around the 
compressor and the holding tanks without screening at this 
site. This is just another example of the trip to my ranching 
business I face on a daily basis from the oil and industry. 
This is the same cow that was drinking from the last of the 
fluids in this tank on March 8th. Notice the hair loss around 
the muzzle and around the ears, which on both sides of her nose 
are falling off, and then her back ears, and then alongside her 
neck she had white spots that were falling--she was losing her 
hair.
    My pregnant cows have also aborted their calves after 
drinking contaminated liquid at well sites. I had a licensed 
veterinarian take blood samples of this specific cow and three 
more from this herd on April 4th. By phone on Thursday, April 
10th, he reported to me that three out of the four cows tested 
positive with toxic damage to the livers and kidneys. This 
means that I will have at least three cows out of this herd and 
probably more that will either die or be infertile. And this is 
just one of the many times industrial has failed to properly 
fence dangerous areas injuring my cows. Will the industry pay 
these damages? Their track record shows that it will take me 
time and effort to extract any damages from BP for this breach 
of BLM regulations and best practice standards.
    This is just another picture of a calf losing hair, body 
hair. This calf was also tested positive with oil by-products.
    The road conditions are a major problem in the area on my 
allotment. This picture shows a result of flat-blading. Flat-
blading creates a road surface that does not allow water to 
drain to the side of the road properly. The ruts in this road 
are over 2 feet deep. Note the pitchfork with a yellow flag 
forcing traffic to go around the main travel road destroying 
additional natural surface areas. This is another example of 
flat-blading. Note the 12-inch high pressure gas line, 
transmission line that has been excavated by erosion and 
runoff. Also note the pitting on the rust on the outer surface. 
If heavy equipment or an accidental vehicle contact would have 
hit this pipeline it could have ruptured it causing a fiery 
explosion and death or injury to anyone close by. No safety 
barriers were in place here to notify travelers of the hazard.
    Our public land is a national treasure for all to enjoy. As 
a rancher I am committed to its protection. And reasonable oil 
and gas production has destroyed many parts of our public land. 
These damages will persist for lifetimes. It is time to enforce 
the law and require proper land stewardship from oil and gas. 
As a rancher I want my business protected from these impacts of 
oil and gas industry. Thank you.
    [The prepared statement of Mr. Velasquez may be found in 
the Appendix on page 55.]

    Chairwoman Velazquez. Thank you very much.
    Mr. Scott Moyer, our next witness, is the owner of Down 
Valley Septic and Drain in Rifle, Colorado. Down Valley Septic 
is a small business that has over 33 employees. Mr. Moyer and 
his wife have operated the company for over 11 years, and the 
company offers septic pumping, portable toilets, tank rentals, 
roll off containers and potable water services. Welcome.

  STATEMENT OF MR. SCOTT MOYER, DOWN VALLEY SEPTIC AND DRAIN, 
                        RIFLE, COLORADO

    Mr. Moyer. Thank you, Madam Chairwoman, members of the 
Committee. Thank you for having me. I would like to admit my 
statement into the record if I might and just talk to you this 
morning. My wife and I--
    Chairwoman Velazquez. Without objection.
    Mr. Moyer. Thank you. My wife and I moved to Garfield 
County in Rifle, Colorado about 12 years ago. Our income at 
that stage of our lives was extremely low. We were surviving on 
probably $20,000 a year between us to support ourselves, which 
was mostly the case in our county. The county had a lot of 
employees in it that were at medium income jobs, minimum wage, 
getting by, things of that nature.
    Today as I sit in our community in our restaurants and in 
town, I see people living a lot better than they did 10 years 
ago, having more things available to them, nicer houses, I see 
higher education, getting a lot of funding from oil and gas and 
tax bases in our community. My friends' children and the people 
in our town can afford higher education and are going to 
school, spending money, improving our community. We see a lot 
of funding going to the Department of Wildlife, developing 
programs to help with the mitigation between the wildlife and 
the drilling, and it seems to be working. Today I can honestly 
say in our community there is more people working, a better 
quality of life than we had a decade ago.
    Our community was mainly a tourist-based economy, which was 
great for a lot of people 2 to 3 months out of the year, and 
then everybody left. As soon as the winter came our population 
would go down, our earnings would go down and our businesses 
would shut. Today we enjoy year-round businesses, we enjoy 
seeing businesses thrive and more people owning their own 
business. I have seen an increase of 100 percent of the people 
that used to be my neighbors working at McDonald's, working as 
the janitors in our schools, that now have enough income and 
opportunity that they can truly start their own business and 
enjoy the benefits of having a good economy in our area.
    We do not have a lot of foreclosures on our homes in 
Garfield County in western Colorado where I understand the rest 
of the country is in crisis. We do not have a lot of 
foreclosures on our street. People are working, they are 
spending their money. Our community is improving and we 
actually can talk about investments.
    Like Mr. Bartlett spoke of, investing in renewable fuels, 
renewable energies, it takes money. And the common man cannot 
afford to invest in renewable energy, energy fuels, things of 
that nature, for the next generation unless we have the money 
to do so. And too many people are trying to survive in the rest 
of the country on minimum wage. I don't know anybody that can 
invest money at $5.75 an hour or $6 an hour. They can barely 
afford health care. They can't afford their housing. And now 
with the energy development it allows my community to truly do 
those things.
    We see a lot of community benefited programs that are now 
popping up that are backed by energy companies. They pay an 
abundance of taxes where my taxes have not risen in Garfield 
County. The money goes to schools, the money goes to our roads, 
it improves our infrastructure and truly benefits everybody in 
the community, not just a select few.
    Ten years ago when we came to the valley I started my 
company, and I actually had to work two jobs, not just my 
primary job pumping septic tanks and doing our normal business. 
I had to pump gas at night just to make the bills meet. But 
that is what we did because that is how my community got by; we 
worked. And if we have to work day and night that is what we do 
to pay our bills and to make things good in our community. Now 
that we have jobs and people coming from all over the company 
to fill those jobs, like I say, it allows us to work a lot less 
and then truly enjoy our money, enjoy our hunting and our 
fishing and the recreational sports that we do have available 
to us. And I see all of those businesses flourishing.
    And that is about all I have to say. Thank you, Madam 
Chairwoman.
    [The prepared statement of Mr. Moyer may be found in the 
Appendix on page 65.]

    Chairwoman Velazquez. Thank you, Mr. Moyer. Mr. Dvorak, I 
would like to ask my first question to you. BLM is tasked with 
managing land for multiple uses to best meet the needs of the 
American people without permanently impairing the quality of 
the environment. Do you believe that BLM is meeting that goal, 
and how do they take into account the needs of small firms like 
yours which depend heavily on recreational use of the land?
    Mr. Dvorak. Well, it is real easy for BLM to talk the talk, 
but when you see them out on the field they are not really 
walking that talk, because there is almost nobody in the field 
actually monitoring what goes on in gas and oil extraction. 
Most of the people that still work for the BLM, all they are 
doing is issuing permits.
    There is a real frustration. My brother-in-law was actually 
the district manager of the BLM in Casper, Wyoming. And he 
talks about how a lot of people who have resisted what is going 
on in the current administration have been forced into 
retirement, how a lot of biologists and people who are 
concerned about the ecology have actually been forced into 
other jobs, forced into areas that they no longer can have any 
sort of say on how the BLM is managing the land.
    And so no, in answer to your question I think the BLM is 
doing a horrendous job of managing public lands for multiple 
use.
    Chairwoman Velazquez. Thank you. Mr. Amerine and Mr. 
Dvorak, I will invite you to comment on this question. More 
than 87 million Americans spent over $122 billion on wildlife-
associated recreation in 2006. How do those billions of dollars 
help small firms create jobs out West and do your clients 
support other local businesses and stimulate local economies? 
Mr. Amerine.
    Mr. Amerine. Madam Chairwoman, our local economy is out of 
whack right now. The energy development going on around us has 
allowed the high school kids, the ranch kids to go out and 
drive a water truck for $20 to $25 an hour. It is very hard for 
the small businesses in the surrounding area to pay those kind 
of wages. Granted, the local hardware store is booming because 
of the influx of oil and gas workers. But the poor guy is 
working himself to death because he can't get any help to run 
the counter for him or the back room.
    The same thing is a happening on the ranches. To get a kid 
to buck a bale of hay right now is almost impossible. They just 
simply won't do it. The ranchers cannot afford to pay the wages 
that are going on around it. The same thing with my outfitting 
business. Three guides I have working full time for me love 
what they are doing, and that is the only reason they are doing 
it. If it was a financial gain for them, they would be in 
another place.
    Chairwoman Velazquez. Mr. Dvorak.
    Mr. Dvorak. Again, I happen to live in an area that is not 
directly affected by oil and gas. In my community the major 
economic driver is the river business. We generate something 
like $390 some million a year in the State of Colorado. The 
Arkansas River where I am based on is the most popular 
whitewater river in the world. My particular company is 
actually sort of the largest customer of the local Safeway 
store. We have about 300 guides that live in the valley, and 
all of the economy that is generated through their wages and 
things like that goes directly back into that community. Most 
of us are year-round residents there, they own companies there. 
So our kids go to school there. You know, we buy our insurance, 
we do all the things that a small business would do for that 
community. If that answers your question.
    Chairwoman Velazquez. Thank you very much. Mr. Velasquez, 
you explained to us the contamination that has taken place in 
the land that you lease. Can you talk to me, who are you 
reaching out to asking for help; BLM?
    Mr. Velasquez. Madam Chairwoman, yes, we used to have 
meetings with BLM and the oil companies on a daily basis 
because this problem has been going on for 20 years-plus on my 
operation. And we thought we could solve it by having meetings 
with the oil companies, bringing them in on board.
    Chairwoman Velazquez. This is BP?
    Mr. Velasquez. BP, ConocoPhillips, Williams Field, every 
company that is available there in the four corners. We bring 
them into those meetings and spend 4 or 5 hours with them. We 
are the only ones not getting paid to go to those meetings. BLM 
was getting paid and the staff was getting paid, the oil 
companies. We were sitting there until we found out that we 
didn't have no voting right when they made decisions on that 
board so we quit. And I had brought it up to the--we used to 
have field tours with oil companies and the BLM until I got 
plumb fed up. I don't do that anymore. They know what they need 
to do. The regulations are in place by BLM. They are not 
enforced. And just on that instance, on the cows drinking that 
contamination of that tank, that tank in 2005, and I got 
pictures of it, didn't have a screen on it or nothing to 
protect the wildlife or my cattle. So I called BLM, they went 
ahead and put that chickenwire on it and now my cows get into 
the same tank and they are turning out positive with 
contamination to the liver. This has been an ongoing problem 
constantly. And the BLM manager in the Farmington office told 
me at one time he didn't want to see my pictures again or 
anything that I had to report on BLM lands.
    So I deal with the BLM Director from the State of New 
Mexico, Linda Rundell, but it is a ongoing problem for me. And 
BLM has not helped me protect my interest on public lands at 
all, because I still got the same problems that I had 20 years 
ago with cattleguards contamination going on still today. It is 
frustrating.
    Chairwoman Velazquez. It is. And I hope that you are 
reaching out to your Member of Congress to get him to 
intervene.
    Mr. Velasquez. Yes. I have been working with them trying to 
get them to help me out.
    Chairwoman Velazquez. Mr. Moyer, you mentioned that there 
are many examples of oil and natural gas companies being good 
stewards of the land. Can you give us some examples of energy 
firms working to minimize their impact on the environment?
    Mr. Moyer. Yes, ma'am. As a matter of fact 2 weeks ago 
Williams Energy and EnCana Energy made large donations to the 
Department of Wildlife to help start monitoring programs above 
and beyond what the BLM and the local and State government have 
implemented to them.
    Chairwoman Velazquez. But if they are causing some type of 
contamination, are they being responsive in cleaning up and 
restoring?
    Mr. Moyer. In all honesty, Madam Chairwoman, I have not 
seen the type of factors that they are speaking of. In Garfield 
County I live next door to one of the largest cattle ranches 
which has drilling wells on it, and I have not seen any type of 
the behavior that he spoke of with these particular oil 
companies. They do a good job, as far as I can see, with the 
cattleguards and the fencing. They have, on the contractors 
like myself that work for them, they have rules and regulations 
that they monitor them and they are very serious that they 
impose and make sure that we are following.
    Chairwoman Velazquez. So you work for the energy company?
    Mr. Moyer. I work for my local citizens first and then I 
work for my oil company second.
    Chairwoman Velazquez. But you are being employed by the oil 
company?
    Mr. Moyer. I am employed by everybody in my county, not 
just the oil and gas people. My priorities and my loyalties are 
with what is right and wrong, not with who signs a bigger 
paycheck.
    Chairwoman Velazquez. Thank you.
    Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair. I wanted to apologize 
to the panel because I had to go to another committee hearing 
and that is why I didn't hear all your testimonies here in 
person. And since the gentleman from Missouri was kind enough 
to fill in during that time and was here to hear all the 
testimonies, I am going to defer to him for the questioning at 
this time. And I will wrap up at the end. So I will yield my 
time to Mr. Akin.
    Mr. Akin. Thank you very much. I have got to scoot to 
another hearing, too, in just a minute. But I think what I am 
coming away with from the hearing, and that this is a balancing 
act and there has to be team work, people have to work 
together. And what I am hearing is that at least in some areas 
BLM is just not doing the job that they should be in making 
sure that we are keeping up certain standards. One of the 
things that was interesting from the aerial photos is the 
fairly large footprint at these different facilities. Are those 
footprints that we are seeing in the pictures just recently 
drilled or does the foliage have a chance to grow back after a 
period of time? And are there standards about how much land you 
have to disturb in order to--is this all natural gas, by the 
way, or is this oil?
    Mr. Velasquez. This is natural gas in our area.
    Mr. Akin. Mostly natural gas?
    Mr. Moyer. Mostly natural gas.
    Chairwoman Velazquez. Yes.
    Mr. Akin. And the natural gas is going to last for some 
period of time, right, and then they just cap things off and 
can go, is that right? How long do these wells last? And is 
there some sort of requirement to keep the footprint as small 
as possible, because it looked like they had roads in large 
areas, pretty big areas that were being used just for one to 
poke a hole in the ground?
    Mr. Velasquez. That is what they do in our area, just use 
one patch just for one well. Very seldom do they use 
directional drilling. And that impact has impacted the wildlife 
and my operation. Because every time they take a road and a pad 
out of production on a forage or a pipeline they don't reseed 
or reclaim it correctly. And that land that we live on is real 
fragile. There is a lot of sandstone that erodes real quick. So 
if they don't build that road up to BLM standards you got a big 
ditch in the middle of the road or the water just travels down 
the middle of the road and never gets back to the forage like 
it should be.
    Mr. Akin. Yes, Mr. Moyer.
    Mr. Moyer. The vast majority of drilling in western 
Colorado is now done directional. They run I have seen anywhere 
from 9 to 15 wells going on one pad and all handled 
directional.
    Mr. Akin. So there is a newer approach to doing it?
    Mr. Moyer. Not necessarily newer. It is a lot more 
expensive.
    Mr. Akin. To do that type of drilling, to do the angular?
    Mr. Moyer. Correct.
    Mr. Amerine. Congressman, if I may comment on this. Two of 
the largest gas fields in the continental United States are 
within a short drive of my house, the Jonah and the Anticline, 
producing huge amounts of gas at this time. Unfortunately, it 
is sitting at 7,000 feet. That area does not recover from 
impacts. I can take you into areas that were wildcat drilled 
back in the 1970s and 1980s, and they are highly defined, they 
just don't recover. And along with that is our pronghorn and 
mule deer. You can replant these areas with grass. Deer and 
antelope will starve on grass. They need the bitter brush, the 
sagebrush. It takes generations for that to come back.
    Mr. Akin. Madam Chair, I was just thinking that just 
sitting in this room gets a little tiresome. Maybe we need to 
take the Committee on a couple of river trips if you could 
arrange it. Thank you.
    Chairwoman Velazquez. I think that there will be bipartisan 
support.
    Mr. Dvorak. If I can just comment, what you guys need to do 
is to do a field meeting out there and look at the impacts of 
what is going on. I mean, we can sit here and talk. And again, 
anybody can talk the talk. But for you to actually see it and 
be on the field and deal with the folks who have had--and we 
talk about leasing on private lands. Well, you know, if your 
private land is adjacent to somebody else who has a lease on 
theirs and you are downwind of that particular oil and gas well 
and 24/7 you are listening to that pounding and you are 
smelling those fumes, tremendous numbers of people are just 
getting very, very ill, and they are having all sorts of 
endocrine damage. There are a lot of other things beside small 
businesses and wildlife habitat issues here. There is 
tremendous public health issues here.
    In Colorado last year we actually passed a wildlife habitat 
protection bill, and it went through both of our legislative 
houses unanimously, because people have recognized that we have 
serious problems here.
    Chairwoman Velazquez. The time has expired. Ms. Clarke.
    Ms. Clarke. Thank you, Madam Chair. I agree, we need a 
field exploration of this issue. One of the things that, and I 
think it gets to the heart of something that Mr. Bartlett said 
in his comments, is that you know there are short-term gains 
and then there are long-term legacies. You know, we know that 
right now, Mr. Moyer, your community is flourishing as a result 
of what is taking place there. But we know that industry will 
come to an end at some point in time. Maybe not in your 
lifetime, but perhaps in your children and your grandchildren's 
time. And so we have to be visionary in custodianship of the 
industries that are currently providing a service, and a very 
valuable service to your community and its growth.
    But when you talk about the natural habitat that provides 
for ranches work, which is enduring, the exploration and the 
types of outfitting work that those two gentlemen on the end of 
the table with you are talking about, which is enduring, we 
have got to find that balance. And I think that it will be the 
leadership of communities like yours in talking about what--now 
that you have gotten to this level of technological and 
industrial growth--what is going to be the next phase. And how 
do we encourage that in a way in which, and how do we advocate 
for it and how do we push government to respond in a way in 
which it makes its transition? Because truly you are at the end 
of a gain, and that is something that we all recognize in the 
United States of America. But are we going to kill off 
everything else around it so that we never recover, we never 
recapture, we never renew ourselves as an environment for that 
gain? And I think that is essentially the question that is 
being asked here today. And we do have to be forward thinking 
about what happens to a community that has been able to really 
stand up as a result of these industries that have come in. We 
have to look very closely at how this is regulated, because 
there is no doubt that there is dereliction of duty and 
recklessness taking place as well. And to turn a blind eye to 
that could be perilous to us in the end.
    So Madam Chair, I don't really have a question because I 
think, you know, enough has been said and enough has been put 
out there from each of you as witnesses. And I can appreciate 
it because you brought a balance to what happens. But we 
ultimately want to get to the win-win solutions here, and that 
is what government is about. If we are being derelict of duty, 
we are being reckless in allowing other small businesses to 
trample other small businesses when there is enough room for 
everyone, then we are not doing our duty here.
    So I want to thank all of you gentlemen for again shedding 
light and bringing this forth and being very honest about how 
this activity is impacting on your businesses.
    Chairwoman Velazquez. Will the gentlelady yield?
    Ms. Clarke. Yes, Madam Chair.
    Chairwoman Velazquez. It is not small businesses against 
small businesses. BP is not a small business.
    Ms. Clarke. You are absolutely right.
    Chairwoman Velazquez. I just wanted to make sure. Thank 
you.
    Ms. Clarke. Thank you, Madam Chair.
    Chairwoman Velazquez. Any comments?
    Mr. Velasquez. I would like to make another comment. In 
every wellpad that you see there, there is either a compressor 
going on or a pump jack. Even sometimes both are running 7 days 
a week on the same pad. So the noise level is unbelievable you 
get out there.
    Chairwoman Velazquez. The time has expired.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much. I was interested in the 
obvious conflicting interest expressed in the testimony of Mr. 
Velasquez and the testimony of Mr. Moyer. Mr. Moyer's testimony 
about the increased prosperity that came to his community when 
they started the drilling is just an expression of the 
incredible quality of energy that we get from these fossil 
fuels. I think the most insightful speech given in the last 
century was a speech given by the author by Nuclear Submarine 
Hyman Rickover, to a group of physicians in St. Paul, Minnesota 
on the 15th day of May 51 years ago. And he noted that this 
incredible quality and quantity of energy, one barrel of oil, 
has the energy equivalent of 12 people working all year. This 
has enabled us to develop a truly golden age, which is what 
Hyman Rickover referred to it as.
    By the way, you can find the speech if you do a Google 
search for Rickover and energy speech. And I think you will 
find, as I have found, that it is probably the most interesting 
speech that you have ever read.
    Well, this is the crux of the problem. It is what got us to 
where we are today. Because our society has benefited now for 
150 years and benefited so spectacularly from a quality and 
quantity of energies in these fossil fuels we have pursued 
these fuels with the same intensity that the dope addict 
pursues his drug, and with wanton abandonment, with no more 
responsibility than the kids who found the cookie jar or the 
hog who found the feed door open, we have just been pigging 
out. The behavior is as if oil and gas were going to be 
forever. Clearly they cannot be forever. Clearly they are 
finite.
    Our country reached its maximum oil production in 1970, and 
in spite of drilling more oil wells than all the rest of the 
world put together, today we produce about half the oil. By the 
way, that is in spite of finding oil in Alaska and in the Gulf 
of Mexico which wasn't included in King Hubbert's prediction. 
Today we produce about half the oil that we did in 1970.
    This is very interesting testimony, Madam Chairwoman, 
because it indicates to us the incredible challenge that we 
face. How are we going to continue the quality of lifestyle 
that we have when we are going to be dependent on renewables 
that will not have the quantity and quality of energy that 
these fossil fuels have?
    America is the most creative innovative society in the 
world. This is a huge challenge. I am excited about this. The 
world has never faced a problem like this--not my quote. This a 
quote from a major study paid for by your government and 
ignored by your government about peak oil, which said that the 
world has never faced a problem like this.
    Madam Speaker, I think we are up to this with proper 
leadership. We are the most creative, innovative society in the 
world. What we need is a program that has a total commitment of 
World War II. In about 6 weeks I reach my 82nd birthday, so I 
remember that war very well. And we need the technology focus 
of putting a man on the Moon. Wow, how that invigorated 
America. Everybody was a part of that first step on the Moon. 
And we need the intensity of the Manhattan Project. And I think 
with that that more and more communities will be thriving, Mr. 
Moyer, like your community is thriving with the energy from 
fossil fuels because of the activities that are going to be 
necessary to move from fossil fuels to true renewables.
    This has been very enlightening testimony. Thank you all 
very much. It is very obviously the conflicting interests that 
we have here. On the one hand our society demands, as a 
previous witness indicated, our small businesses, he thought, 
could not maintain their current vitality without unlimited 
access to gas and oil. There will not be unlimited access until 
we face a huge challenge in transitioning to these nonfossil 
fuels, these true renewables. And I look forward to very 
exciting times when America has more to do than just watch 
movies and drink too much. I think there are more exciting 
things to do.
    Madam Chairwoman, thank you very much for this hearing.
    Chairwoman Velazquez. I will yield on a second and third 
round to the gentleman.
    Mr. Bartlett. I have got to go. My phone was just ringing. 
I have an appointment. I thank you all very much.
    Chairwoman Velazquez. Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Madam Chair. Thank you gentlemen 
for being here. I am not quite sure why Mr. Moyer didn't get 
the memo on the dress code on the boots and hat, but we will 
figure that one out.
    Mr. Moyer. My boots are always rubber.
    Mr. Ellsworth. You need to invest in a pair of those. But 
thanks for holding this important hearing. I would just like to 
associate my comments again with Mr. Bartlett and Ms. Clarke 
that, Mr. Moyer, I can appreciate when you see the influx of 
the jobs and the economic development that comes in with that. 
But then we have to look. And I don't know the life of these 
wells, if they are 15 years, 20 years. But I just have to guess 
that the company is not going to stick around and continue that 
investment when the gas is gone. And so we have to find that 
mix and leaving that land as pristine as possible so that we 
can protect those lands. And I have been blessed to be able to 
come to all of your States and enjoy those exact things that 
you do for a living, and I appreciate that and want to go back.
    Mr. Dvorak, and that is close, you reacted when we were 
talking about the cost of the directional drilling versus the 
one hole, and you had a little reaction when we talked about 
being more expensive, and I don't know if you would like to 
elaborate on that. It was just kind of a nod and a smile. But 
are you seeing, and maybe Mr. Moyer, tell me again the 
percentage they are doing directional, and then Mr. Dvorak, 
what you are seeing in that of the directional drilling we are 
doing? If you two could help me on that.
    Mr. Moyer. Well, I am not in a position to know exactly 
what the cost of our directional, of directional drilling. But 
I do know from what I hear from my company and all the 
different companies that I deal with it is a lot more 
expensive. But they do opt for the more expensive drilling to 
keep their footprint to a minimum and work from one patch just 
as long as they can.
    Mr. Ellsworth. And did you have a percentage earlier of how 
many you think are done directionally?
    Mr. Moyer. I think 80 percent of our wells are now done 
directional. I may be wrong.
    Mr. Dvorak. I think in Garfield County where he refers to 
there are only eight rigs that concurrently develop 
directionally. So there is a finite number that they can 
actually do. So there is still a lot of straight down hole 
drilling because there is more of those kind of drill rigs 
available.
    I think in the long run a lot of energy companies are 
finding that directional drilling is actually more economical, 
because they actually have one road in, they can put a pipeline 
in, a pipeline out, they don't have to have the pits that Chris 
is talking about where you have the toxic waste in the pits 
that either could overflow or animals can get into. So I think 
in the long run they are going to find that it is more 
economically to actually directionally drill. It is just that 
they have a limited number of those types of rigs out there 
right now. And there is more in production so it is going to 
take a little bit of catch-up time. So there still is a lot of 
straight down hole drilling.
    And I guess just to your comment earlier and Ms. Clarke's 
comment, I come from Sheridan, Wyoming. I have seen four boom 
and bust cycles in the course of my lifetime, primarily coal 
based. I was based in Grand Junction, Colorado in 1982 on Black 
Sunday when Exxon pulled out of the Colony Oil sale and watched 
that economy totally deteriorate. 2,200 jobs were lost 
overnight. It took that western slope of Colorado 10 years to 
recover from that. And they recovered by relying on their 
natural resources, on their lands that you could recreate on. 
Wyoming, where I am from, in Sheridan, always has gone back to 
being a ranching community at the each of those bust cycles. So 
again, it is a land that sort of sustains us. And it is the 
sustainability of that land that in the long run is what we 
need to protect.
    And again, nobody is against gas and oil exploration. All 
it needs is the balance that you are talking about, sir, that 
we can go in there and extract the resources from the Earth and 
do so in a way that the other things can co-exist with that.
    Mr. Ellsworth. And just as a--and thank you all very much. 
Madam Chair, as a final observation, in my brief time in this 
House I know that the Federal Government creates these 
programs, BLM, for a reason. And I don't know what we would 
look like if we didn't have--you know, when the Federal 
Government steps in to make that balance and protect people's 
rights. But again, another Federal agency that we create, and 
yet we are getting bad reports on, and when we call the leaders 
of the agencies and they say, well, I either just got here in 
the last 9 months, that happened before my watch, or we are 
looking into that. And I have heard that in not just the Small 
Business Committee, but Armed Services Committee and 
Agriculture Committee. And I just keep looking at us and saying 
if it is the administration--not the administration, if it is 
the bureau's problem, then shame on them, and if it is us not 
doing our job, then shame on us. And it is pervasive up here 
when we say I am looking into that or we are getting bad report 
cards on our agencies. And I yield back.
    Chairwoman Velazquez. The time has expired. Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair. Again, I wasn't here 
for all the testimony, and I understand there were some really 
superb illustrations and photographs and that sort of thing as 
well. My comments briefly, and then a question. A lot of the 
questions that I had have already been asked by others. But in 
my observation it will be the Bureau of Land Management 
obviously should use every effort to make sure that the proper 
balance is being met between protecting the environments of 
small businesses, such as the folks that are here today are 
able to make a living and to be able to utilize the land and 
the natural resources we have and the wildlife appropriately, 
and at the same time that we are able to go after natural gas 
and oil, the energy to run this country. Now, oil can be used, 
and in general of course in this country it is used to run 
motor vehicles, which is the principal transportation that most 
people utilize in this country nowadays, at least under the 
current technology that we have. It can also be used in power 
plants as coal can be and natural gas and others. About 2 
decades ago was the last time we actually utilized one source 
of power in this country that other countries utilize, and that 
is nuclear. France, for example, the last figure that I believe 
I saw was about 75 percent of the power generation over there 
is nuclear. We haven't built a nuclear power plant in 20 years 
here. We have some out there that are still in operation, and 
for the most part very safely being operated. But we haven't 
built one in 20 years. And I would be interested to know, 
knowing what we do now, and knowing that our resources, 
especially in the area of oil, both in this country and the 
world, are being depleted.
    Do you think that in the future that should be an 
alternative that ought to be considered to power this country 
so we don't have to be so reliant upon oil? And I see you 
nodding, so I will begin with you, sir.
    Mr. Amerine. Congressman, I am a firm believer that we have 
to start looking for other energy sources. Overall, nuclear has 
been fairly safe. The problems we have had haven't been in the 
United States, to speak of. I mean, there were a couple 
isolated incidents, but not really any real problem.
    We are going to run out of fossil fuels. It is inevitable, 
the pace we are going right now, and I look around at what kind 
of impacts that development is going to leave. What is going to 
be in the wake of all this development throughout the Western 
States, an area that does not recover fast from impacts on the 
landscape.
    So, yes, I am a firm believer in any type of alternative 
energy, whether it be solar, wind or nuclear.
    Mr. Chabot. Thank you.
    Mr. Dvorak. If I can comment on that, I have a slightly 
difference perspective because, in my area, while we don't have 
oil and gas near where I live, we do have uranium. And there is 
also uranium on several of the rivers that I operate on. One of 
the rivers, the Dolores, was actually where the uranium came 
from that the bombs that were dropped on Nagasaki and Hiroshima 
came from. There are tremendous uranium resources there.
    You have the same kind of problems because the current way 
of developing uranium is to actually drill and then impregnate 
the ground with a solution and then to bring the slurry back 
out, that same mineral that creates the uranium. You have the 
same kind of problems that you have with oil and gas 
development, in that to do that, they have to fracture the 
soil. When they do that, they run the risk that those 
fractures, instead of going out horizontally, may sometimes go 
up vertically and then contaminate the ground water that people 
utilize for either their drinking water or their stock.
    So we have issues with uranium mining as well because it is 
not the old sort of drill a hole in the ground and pull out the 
yellow cake that we once utilized. Now it is mostly a drilling 
process.
    Mr. Chabot. Would it be safe to say, really, in essence, 
that no source of power or energy in the future or now is risk-
free?
    Mr. Dvorak. I would say that it is not risk-free. I am 
saying it is going to require the same balance. We need to do 
it in a responsible way and make sure that the resource is 
looked after.
    Mr. Chabot. Even wind, for example, now you have people 
that will talk about the number of birds that end up being 
killed as a result of that. Some people don't like to have them 
where they can see them, like up in, I believe, Massachusetts, 
off the coast up there. There are some folks that have objected 
to that.
    Mr. Dvorak. Again, I think if you can work with your 
divisions of wildlife and figure out where the main nesting 
areas and the areas for these birds to be and avoid those 
areas, and, again, that is what we have asked for in the oil 
and gas areas, is that these folks consult with the divisions 
of wildlife and look for where the main winter ranges are, 
where the migration routes are, where the calving and lambing 
areas are, and sort of try to avoid those areas or stay out of 
those areas in the most critical times. That makes a tremendous 
impact on how the wildlife sustains itself.
    Mr. Chabot. Back to the nuclear, Mr. Velasquez and Mr. 
Moyer, if you had a comment.
    Mr. Moyer. If you think about Three Mile Island, you think 
about Chernobyl, there is truly no safe form of fuel or energy 
available to us. There is always going to be cause and effect 
and a risk on anything that powers our cars or heats our homes. 
Chopping down trees for firewood, we are going to run out of 
our forests.
    Like you said, it is a point where we need to find the 
right balance with nature and man and then go from there. I 
haven't heard anybody mention hydrogen yet. That is where I 
would like to see it go.
    Mr. Chabot. The President in one of his State of the Union 
addresses talked about the development of a hydrogen vehicle at 
some point, too, which I think all of us would like to see. But 
at this point, there are a number of technology problems that 
still have to be dealt with.
    Mr. Velasquez. On my part, we get a lot of sun and wind in 
New Mexico, so we could use a lot of that for alternative 
energy on our part.
    Mr. Chabot. In some areas of the country, obviously, solar 
is more realistic than others, and wind as well. I agree with 
you completely, and I think that is the point, that at this 
point in time, we have to look at what is realistic and 
reasonable and what the cost is and the safety issues that are 
involved and hopefully make the right decisions. That is one of 
the purposes of this hearing, to make sure that we are 
considering that.
    I think this panel has been very helpful in giving us 
useful information. Thank you for that.
    I yield back.
    Chairwoman Velazquez. Mr. Moyer.
    Mr. Moyer. I was just going to say, we still have one 
restaurant in town that still has horse parking. You can tie 
your horse up to his restaurant any time.
    Chairwoman Velazquez. I guess that is the right balance.
    Again, I want to thank all of you. I have found, coming 
from New York City, and to have the opportunity here to listen 
to all of you has been a great, great hearing. We have never 
conducted a hearing of this nature in dealing with public land 
and the responsibility of the Bureau to make sure that they 
strike the right balance, and that in the process, small 
businesses are not impacted, and looking at ways where we can 
exercise oversight to make sure that the Bureau is taking their 
responsibility and their mission seriously.
    One of the members of this committee is Raul Grijalva from 
Arizona, and he chairs the subcommittee that has jurisdiction 
over these type of issues. Of course, I will be talking to him 
the same way that we are going to be talking with the 
Department of Interior in making sure that they get the message 
that this committee will intend to exercise oversight over the 
responsibility that they have in making sure that we protect 
the environment, the land, public land, and the source of 
business for the small business people that are involved in 
different activities related to public land and the 
environment.
    Thank you very much.
    I ask unanimous consent that members will have 5 days to 
submit a statement and supporting materials for the record. 
Without objection, so ordered. This hearing is now adjourned.
    [Whereupon, at 11:47 a.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 40858.001
    
    [GRAPHIC] [TIFF OMITTED] 40858.002
    
    [GRAPHIC] [TIFF OMITTED] 40858.003
    
    [GRAPHIC] [TIFF OMITTED] 40858.004
    
    [GRAPHIC] [TIFF OMITTED] 40858.005
    
    [GRAPHIC] [TIFF OMITTED] 40858.006
    
    [GRAPHIC] [TIFF OMITTED] 40858.007
    
    [GRAPHIC] [TIFF OMITTED] 40858.008
    
    [GRAPHIC] [TIFF OMITTED] 40858.009
    
    [GRAPHIC] [TIFF OMITTED] 40858.010
    
    [GRAPHIC] [TIFF OMITTED] 40858.011
    
    [GRAPHIC] [TIFF OMITTED] 40858.012
    
    [GRAPHIC] [TIFF OMITTED] 40858.013
    
    [GRAPHIC] [TIFF OMITTED] 40858.014
    
    [GRAPHIC] [TIFF OMITTED] 40858.015
    
    [GRAPHIC] [TIFF OMITTED] 40858.016
    
    [GRAPHIC] [TIFF OMITTED] 40858.017
    
    [GRAPHIC] [TIFF OMITTED] 40858.018
    
    [GRAPHIC] [TIFF OMITTED] 40858.019
    
    [GRAPHIC] [TIFF OMITTED] 40858.020
    
    [GRAPHIC] [TIFF OMITTED] 40858.021
    
    [GRAPHIC] [TIFF OMITTED] 40858.022
    
    [GRAPHIC] [TIFF OMITTED] 40858.023
    
    [GRAPHIC] [TIFF OMITTED] 40858.024
    
    [GRAPHIC] [TIFF OMITTED] 40858.025
    
    [GRAPHIC] [TIFF OMITTED] 40858.026
    
    [GRAPHIC] [TIFF OMITTED] 40858.027
    
    [GRAPHIC] [TIFF OMITTED] 40858.028
    
    [GRAPHIC] [TIFF OMITTED] 40858.029
    
    [GRAPHIC] [TIFF OMITTED] 40858.030
    
    [GRAPHIC] [TIFF OMITTED] 40858.031
    
                                 <all>

</pre></body></html>
